Audit Report




OIG-13-038
RESTORE ACT: Treasury Missed Its Statutory Deadline for
Establishing Procedures Governing RESTORE Act Programs and
Activities
April 17, 2013




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                            DEPARTMENT OF THE TREASURY
                                                   W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                      April 17, 2013


            OIG-13-038

            MEMORANDUM FOR RICHARD L. GREGG
                           FISCAL ASSISTANT SECRETARY

            FROM:                       Marla A. Freedman /s/
                                        Assistant Inspector General for Audit

            SUBJECT:                    Treasury Missed Its Statutory Deadline for Establishing
                                        Procedures Governing RESTORE Act Programs and Activities


            This memorandum presents the results of our audit oversight work to date of the
            Department of Treasury’s (Treasury) implementation of the Resources and
            Ecosystems Sustainability, Tourist Opportunities, and Revived Economies of the
            Gulf Coast States Act of 2012 (RESTORE Act). 1 The RESTORE Act established the
            Gulf Coast Restoration Trust Fund (Trust Fund) within Treasury for the purpose of
            providing funds for the environmental and economic restoration of the Gulf Coast
            region 2 which was damaged by the April 2010 Deepwater Horizon oil spill.
            Deposits into the Trust Fund will be comprised of 80 percent of the administrative
            and civil penalties paid after July 6, 2012, pursuant to a court order or negotiated
            settlement under Federal Water Pollution Control Act. 3 It has been estimated that
            billions of dollars may eventually be deposited into the Trust Fund.

            Among its administrative responsibilities, the Secretary of the Treasury, in
            consultation with the Secretary of the Interior and the Secretary of Commerce, was
            required to establish procedures for depositing amounts in and expending amounts
            from the Trust Fund including procedures for determining compliance and auditing
            requirements of programs and activities established under the RESTORE Act.
            Additionally, the Secretary was required to establish procedures for identifying and
            allocating funds available to the Secretary under other provisions of law to pay the
            administrative expenses for management of the Trust Fund.

            We are reporting on our on-going audit work because of the urgency for Treasury
            to establish procedures governing the Trust Fund programs and activities prior to
            receiving deposits into and incurring expenditures from the Trust Fund. Under the
            RESTORE Act, procedures were to be established by January 2, 2013, 180 days
            1
                Pub. L. 112-141, 126 Stat. 588-607 (July 6, 2012)
            2
                Alabama, Florida, Louisiana, Mississippi, and Texas
            3
                Pub. L. 92-500 (as amended)
OIG-13-038
Page 2

after the statute’s enactment. Treasury, however, has not concluded its
consultative process with the Department of Commerce (Commerce) and the
Department of the Interior (Interior) and has significantly lagged in establishing
those procedures. Accordingly, the ability to fund RESTORE Act programs and
activities timely upon receipt of administrative and civil penalties is at risk.

In performing our audit work, we reviewed the RESTORE Act and Treasury’s draft
regulations, and interviewed key Treasury officials. We also met with Commerce
officials to obtain their perspectives on the status of the Treasury procedures and
the stand-up and administration of the Gulf Coast Ecosystem Restoration Council
(Council). 4 We performed this fieldwork from September 2012 through January
2013.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.


Treasury Missed Its Statutory Deadline for Establishing
Procedures Governing RESTORE Act Programs and Activities
Treasury did not meet a key statutory requirement to establish procedures for Trust
Fund administration within 180 days after enactment of the RESTORE Act (by
January 2, 2013). In October 2012, Treasury provided our office a draft Notice of
Proposed Rulemaking to govern the investment and use of amounts deposited to
the Trust Fund. Treasury officials previously told us that they expected to issue the
draft regulations for a 30 day public comment period in November 2012 and issue
the final regulations by the January 2, 2013, deadline. However, the draft
regulations have not been issued for public comment due to delays in concluding
the consultative process with Commerce and Interior. Among several outstanding
issues to be resolved is the administration of the 35 percent share of Trust Fund
receipts that are to be provided to the Gulf Coast States in equal shares for


4
 Section 1603 of the RESTORE Act created the Council comprised of the Secretaries of the Interior,
Army, Commerce, and Agriculture, the Administrator of the Environmental Protection Agency, the
head of the department housing the Coast Guard (currently the Secretary of the Department of
Homeland Security), and the governors of Alabama, Florida, Louisiana, Mississippi, and Texas. The
Acting Secretary of Commerce was selected by member states and appointed by the President as
Chairperson of the Council.
OIG-13-038
Page 3

expenditure for ecological and economic restoration (hereinafter referred to as the
“Direct Component”).

Treasury officials informed us in March 2013 that while Treasury had been working
on revisions to the draft regulations, none had been circulated outside of Treasury
since the October 2012 draft. Consequently, regulations were not finalized by the
mandated deadline. We were also told that certain matters with the administration
of the Trust Fund were under review by the Office of Management and Budget
(OMB) and the Department of Justice.

The need to conclude the consultative process and finalize the RESTORE Act
regulations is imperative in light of the Department of Justice’s civil settlement with
the Transocean defendants, 5 the first among several defendants. Additionally, there is
ongoing litigation with the other defendants that may reach settlements in 2013.
Without a finalized regulation, distributing funds for eligible programs and activities
authorized under the RESTORE Act may be delayed.

As part of our oversight responsibilities for all projects, programs, and activities funded
under the RESTORE Act, we are continuing our audit of Treasury’s implementation
activities. We plan as our next focus to determine whether Treasury has established
the necessary accounts and internal policies, procedures, and assignment of
responsibilities so that it can promptly effect allocations from the Trust Fund in
accordance with the Act as deposits are received. To the extent that the accounts,
policies, procedures, and assignment of responsibilities are not yet in place, we
encourage Treasury to establish them with all deliberate speed.

Recommendation
We recommend that the Fiscal Assistant Secretary continue to work with
Commerce, Interior, and OMB to expedite the issuance of the RESTORE Act
regulations.

We provided a draft of this memorandum to Treasury management for comment. In
its response, provided as Attachment 1, management stated that as recommended,
it will continue to work with Commerce, Interior, and OMB to complete the

5
  On January 3, 2013, the Department of Justice lodged a proposed consent decree with the
Transocean defendants (Transocean Deepwater Inc., Transocean Offshore Deepwater Drilling Inc.,
Transocean Holdings LLC, and Triton Asset Leasing GmbH) in the U.S. District Court, Eastern
District of Louisiana. Under the proposed decree, among other things, the Transocean defendants
will pay a $1 billion civil penalty plus interest under the Federal Water Pollution Control Act. The
civil settlement was approved on February 19, 2013, and the first installment of $323,392,876.71
was deposited into the Trust Fund on March 21, 2013.
OIG-13-038
Page 4

procedures expeditiously and publish them for public comment. Management views
this consultation process as critical to the success of RESTORE Act programs.

Management’s commitment to completing the consultation process as quickly as
possible meets the intent of our recommendation. Treasury will need to identify and
record planned completion dates for taking specific corrective actions in the Joint
Audit Management Enterprise System (JAMES), the Department’s audit
recommendation tracking system.

We appreciate the courtesies and cooperation provided to our staff during the
audit. A list of the recipients of this memorandum is provided as Attachment 2. If
you have any questions, you may contact me at (202) 927-5400 or Donna Joseph,
Audit Director, at (202) 927-5784.

Attachments
         OIG-13-038

       Attachment 1
Management Response
                                                       OIG-13-038

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Fiscal Assistant Secretary
   Deputy Assistant Secretary, Fiscal Operations and Policy
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of Management and Budget

   OIG Budget Examiner

Gulf Coast Ecosystem Restoration Council
